AUDIT OF THE DORAVILLE POLICE DEPARTMENT’S
  EQUITABLE SHARING PROGRAM ACTIVITIES
            DORAVILLE, GEORGIA




         U.S. Department of Justice
       Office of the Inspector General
                Audit Division


        Audit Report GR-40-11-003
                March 2011
      AUDIT OF THE DORAVILLE POLICE DEPARTMENT’S
        EQUITABLE SHARING PROGRAM ACTIVITIES
                  DORAVILLE, GEORIGA

                                 EXECUTIVE SUMMARY

       The Department of Justice (DOJ) asset forfeiture program seeks to
deter crime by depriving criminals of the profit and proceeds from illegal
activities while enhancing the cooperation between federal, state, and local
law enforcement agencies. State and local law enforcement agencies that
participate in the seizure of property and funds may receive a portion of the
proceeds, or an equitable share of the forfeiture, to use for law enforcement
purposes. The Criminal Division’s Asset Forfeiture and Money Laundering
Section oversees the DOJ asset forfeiture program.

       The Department of Justice Office of the Inspector General, Audit
Division conducted an audit of the Doraville, Georgia, Police Department’s
participation in the DOJ asset forfeiture program during Doraville’s fiscal
years 2008, 2009, and 2010. 1 During the audit period, the Police
Department received $1,755,825 ($1,737,548 in cash and proceeds and
$18,277 in shared property) and disbursed $2,764,463.2 The audit found
that the Police Department generally complied with the agreement and
certification requirements, equitable sharing guidelines regarding accounting
for equitable sharing receipts, and use of equitably shared property and
funds. However, we identified $325 in unallowable costs for the payment of
equitable sharing revenues to the Police Department personnel for travel-
related expenditures not allowed with equitable sharing funds. We did not
question this amount because of its minimal value. We recommend that the
Criminal Division ensure the Police Department:

      •    follow policies and procedures for travel-related expenditures.




      1
          The City of Doraville’s fiscal year begins on July 1 of each year.
      2
         Disbursements exceeded the receipts because disbursements involved funds from
previous equitable sharing awards.
        AUDIT OF THE DORAVILLE POLICE DEPARTMENT’S EQUITABLE
                   SHARING PROGRAM ACTIVITIES
                         DORAVILLE, GEORGIA

                                      TABLE OF CONTENTS
                                                                                           Page

INTRODUCTION ................................................................................ 1
    DOJ Equitable Sharing Program ..................................................... 1
    Doraville Police Department ........................................................... 2
    OIG Audit Approach ...................................................................... 2


FINDINGS AND RECOMMENDATIONS................................................ 4
Federal Sharing Agreements and Certification Forms ................................. 4
Accounting for Equitable Sharing Receipts ............................................... 7
Use of Equitable Sharing Property ........................................................... 8
Use of Equitable Sharing Funds .............................................................. 9
Recommendation ................................................................................ 11


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 12

APPENDIX II -SUMMARY OF TESTED EQUITABLE SHARING
             PURCHASES ............................................................. 14

APPENDIX III - DORAVILLE POLICE DEPARTMENT'S
              RESPONSE TO THE DRAFT AUDIT REPORT ............. 18

APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL
              ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
             TO CLOSE THE REPORT ........................................... 19
                                  INTRODUCTION

      The Department of Justice (DOJ) Office of the Inspector General (OIG)
audited the tracking and use of DOJ equitable sharing funds by the Doraville
Police Department. The audit covered the Police Department’s fiscal years
(FY) 2008, 2009, and 2010. During these periods, the Police Department
received $1,755,825 in cash and property as a participant in the DOJ
equitable sharing program.

DOJ Equitable Sharing Program

       Because asset forfeiture deprives criminals of the profits and proceeds
derived from their illegal activities, it is one of the most powerful tools
available to law enforcement agencies. A key element of DOJ’s asset
forfeiture initiative is the equitable sharing program through which DOJ and
its components share a portion of federally forfeited cash, property, and
proceeds with state and local law enforcement agencies. 1

       State and local law enforcement agencies receive equitable sharing
funds by participating directly with DOJ agencies on investigations that lead
to the seizure and forfeiture of property. Assets seized solely through the
efforts of state and local law enforcement agencies may be transferred for
forfeiture to a federal agency. Transferred seizures are referred to as
adoptive seizures because the federal agency adopts the seizures made by
the state or local agencies.

       Once an investigation is completed and the seized assets are forfeited,
the assisting state and local law enforcement agencies can request a share
of the forfeited assets or a percentage of the proceeds derived from the sale
of forfeited assets. Generally, the degree of a state or local agency’s direct
participation in an investigation determines the amount or percentage of
funds shared with that agency. In adoptive seizures, the federal share is
generally 20 percent of the net proceeds of the seizure performed by a state
or local agency.

       Three central DOJ components work together to administer the
equitable sharing program: (1) the United States Marshals Service (USMS),
(2) the Justice Management Division’s Asset Forfeiture Management Staff
(AFMS), and (3) the Criminal Division’s Asset Forfeiture and Money
Laundering Section (AFMLS). The three components are responsible for
issuing policy statements, implementing governing legislation, and
monitoring the use of DOJ equitable sharing funds. The USMS is responsible
for transferring asset forfeiture funds from the DOJ to the receiving state or
      1
         Federal asset forfeiture programs are also administered by the U.S. Department of
the Treasury and the U.S. Department of Homeland Security.

                                            1
local agency. The AFMS manages the Consolidated Asset Tracking System
(CATS), a database used to track federally seized assets throughout the
forfeiture life-cycle. Finally, AFMLS tracks membership of state and local
participants, updates the equitable sharing program rules and policies, and
monitors the allocation and use of equitably shared funds. Additionally,
investigative components of DOJ and the United States Attorney’s Office
(USAO) also participate in the equitable sharing program. The Drug
Enforcement Administration (DEA) implements major investigative strategies
against drug networks and cartels and the Federal Bureau of Investigation
(FBI) investigates a broad range of criminal violations. The DEA and FBI
each integrate the use of asset forfeiture into its overall strategy to eliminate
targeted criminal enterprises. The USAOs are responsible for the
prosecution of both criminal and civil actions against property used or
acquired during illegal activity.

      Before requesting a share of the seized assets, a state or local law
enforcement agency must first become a member of the DOJ equitable
sharing program. To participate in the program, agencies sign and submit
an equitable sharing agreement and certification form to AFMLS. The
agreement must be renewed annually and in it, officials of participating
agencies certify that they will use equitable sharing funds for law
enforcement purposes.

Doraville Police Department

     The Doraville Police Department is a component of the city of
Doraville, Georgia, which is located about 12 miles north of Atlanta, Georgia.
The Police Department serves a population of about 10,000 residents in a
geographical area of less than 4 square miles. The city has a police force of
about 70 officers and administrative staff.

      The Police Department became a member of the asset forfeiture
program in 1996. Currently, the Police Department has three officers
assigned to two Drug Enforcement Administration task forces.

OIG Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the DOJ equitable sharing program. Unless
otherwise stated, we applied the Guide to Equitable Sharing for State and
Local Law Enforcement Agencies, issued by AFMLS in April 2009. 2 The guide
provides procedures for submitting and sharing requests and discusses
proper use and accounting for equitable sharing assets.
       2
          For the portion of our audit period before April 2009, we applied the prior version
of the guide issued in 1994 and an addendum to the guide issued in 1998.

                                              2
        To conduct the audit, we tested the Police Department’s compliance
with:
        •   federal sharing agreements and certification forms to
            determine if these documents were complete and accurate,

        •   accounting for equitable sharing receipts to determine whether
            standard accounting procedures were used to track equitable
            sharing assets, and

        •   use of equitable sharing funds to determine if equitable sharing
            cash was used for law enforcement purposes.

     See Appendix I for more information on our objectives, scope, and
methodology.




                                       3
              FINDINGS AND RECOMMENDATIONS

     The Doraville Police Department generally complied with
     equitable sharing guidelines regarding the agreement and
     certification requirements, accounting for equitable sharing
     receipts, and use of equitably shared property and funds.
     However, we identified $325 in unallowable travel payments
     made because the Police Department did not follow its
     established policies and procedures for making such payments.
     We did not question this amount because of its minimal value.

Federal Sharing Agreements and Certification Forms

       The Guide to Equitable Sharing for State and Local Law Enforcement
Agencies (Guide) requires law enforcement agencies that receive forfeited
cash, property, or proceeds as a result of a federal forfeiture to submit an
Equitable Sharing Agreement and Certification form. Prior to participation in
the program, the agreement and certification must be signed by the head of
the law enforcement agency and a designated official of the local governing
body. The receiving agency should submit a newly signed agreement and
certification when an administration change occurs and annually within
60 days after the end of the participating agency’s fiscal year. By signing
the agreement and certification, the signatories agree to follow program
statutes and guidelines and certify that the law enforcement agency will
comply with statutes and guidelines.

      We tested compliance with the agreement and certification form
requirements to determine if the required forms were submitted, completed,
accurate, and signed by the appropriate officials. The Police Department
submitted the required forms for the three fiscal years ended June 30, 2008,
2009, and 2010.

      The FY 2008 and 2010 annual agreement and certification forms were
timely completed and submitted. The FY 2009 agreement and certification
form was submitted 2 days late. An official told us that a third party
contractor completed the FY 2009 form and, because of server difficulties,
the Police Department received the completed form late. Upon receiving the
form, the Police Department immediately submitted the form to the AFMLS.
The Acting Chief of Police signed the FY 2009 agreement and certification
form because the Chief of Police was on active military duty. These
occurrences do not require corrective action.

     To verify the total amount of equitable sharing funds received, we
compared the amount of federal sharing funds reported as received in the
Doraville’s Equitable Sharing Agreement and Certification forms to the

                                      4
amount reported as transferred in the AFMS Consolidated Asset Tracking
System (CATS). The amounts were equal as shown in the following exhibit.

                      EXHIBIT 1: RECEIPTS COMPARISON
                                                   Disbursements Per
            FY                 Cash                   CATS Report             Difference
           2008                $1,173,508                  $1,173,508                     $0
           2009                  $414,271                    $414,271                     $0
           2010                  $149,769                     $19,769                     $0
Sources: Doraville Police Department Certifications and CATS reports

       To verify the total amount of expenditures reported on the
certifications for each fiscal year reviewed, we compared the amounts
reported on the certifications with the Police Department’s accounting
records. We noted that the total expenditures reported on the certifications
did not match the expenditures in the accounting records for each fiscal year
reviewed. The differences are shown in the following exhibit.

                   EXHIBIT 2: EXPENDITURE COMPARISON
                                      Expenditures Per
                                         the Police
                                       Department’s
                    Expenditures Per    Accounting
        FY            Certification       Records      Difference
       2008                  $459,049         $529,693      $70,644
       2009                  $873,105         $865,246       $7,859
       2010                  $365,831         $491,329     $125,498
Source: OIG Analysis of Doraville Police Department’s accounting records

       A Police Department official told us the FY 2008 difference ($70,644)
occurred because the Police Department disbursed $70,724 to the DEA for
buy money to be reimbursed. 3 The Police Department did not consider this
an expenditure because it was to be reimbursed. We verified that the DEA
reimbursed the $70,724 to the Police Department. We identified a
difference of $80 in the amount disbursed ($70,724) to the DEA and the
calculated difference ($70,644) shown in the table. We did not take
exception to this amount because of its minimal value.

      The Police Department referred us to its accountant for an explanation
for the 2009 and 2010 differences. 4 The accountant told us the Police

       3
         Buy money are funds allocated for the purchase of evidence or contraband needed
to determine the existence of a crime or to establish the identity of a participant in a crime.
       4
         A certified public accounting firm prepared the Doraville Police Department’s
annual certification reports.

                                               5
Department provided a check register as its accounting records that included
checks written and dated during a given fiscal year. The check register did
not include all expenditures incurred because they were not paid in a given
fiscal year.

       The FY 2009 difference occurred because the certification report’s total
included: (1) expenditures incurred in FY 2009 and paid in FY 2010, (2) a
reimbursement for a travel and training expenditure, and (3) a duplicate
expenditure that should not have been included in the accounting records.
The following exhibit shows the explanations for and the dollar value of the
FY 2009 difference. We did not take exception to the difference in the total
for the explanation ($7,860) and the calculated difference ($7,859) because
of its minimal value.

             Exhibit 3: Explanations for FY 2009 Difference
                       Explanation                 Amount
         Expenditure incurred in FY 2009 and paid
         in FY 2010                                    $10,029
         Expenditure incurred in FY 2009 and paid
         in FY 2010                                     $1,673
         Reimbursement for an expenditure             $(1,726)
         Duplicate expenditure                        $(2,116)
                                            Total      $7,860
         Source: Robins, Eskew, Smith, and Jordan Certified Public Accountants

       The FY 2010 difference occurred because the certification report’s total
did not include: (1) funds transferred from the equitable sharing account to
the U.S. Treasury account; (2) expenditures paid in FY 2010 and included in
the FY 2009 report; (3) a deposit identified as a reimbursement; and
(4) checks written for buy money, not used, and deposited back into the
bank. The following exhibit shows the explanations for and the dollar value
of the FY 2010 difference. We did not take exception to the difference in the
total for explanations ($125,499) and the calculated difference ($124,498)
because of its minimal value.




                                          6
            Exhibit 4: Explanations for FY 2010 Difference
                       Explanation                 Amount
        Money transferred from the equitable
        sharing account to the U.S. Department of
        Treasury account.                              $96,233
        Expenditure paid in FY 2010 and reported
        in FY 2009                                     $10,029
        Expenditure paid in FY 2010 and reported
        in FY 2009                                      $1,673
        Deposit for a reimbursement                     $1,564
        Unused buy money to be deposited back
        into the equitable sharing account             $16,000
                                            Total    $125,499
        Source: Robins, Eskew, Smith, and Jordan Certified Public Accountants

Accounting for Equitable Sharing Receipts

       We audited the Police Department’s equitable sharing activities from
July 1, 2007, through June 30, 2010. The Police Department was required
to follow the guidelines established in the April 2009 Guide to Equitable
Sharing for State and Local Law Enforcement Agencies and the previous
version of the guide issued in March 1994, which applied to the audit period
during July 1, 2007, through March 2009. Both Guides require that law
enforcement agencies use standard accounting procedures to track equitable
sharing program receipts. Participating agencies should maintain a log of all
sharing requests. The log should consecutively number the requests and list
the seizure type, seizure amount, share amount requested, amount
received, and date received for each request. Because the amount actually
received may differ from the amount initially requested, receiving agencies
should periodically update the log to ensure accurate recordkeeping.

      We reviewed procedures for tracking equitable sharing requests
against sharing receipts, reconciled the Police Department’s accounting
records to DOJ records of equitable sharing funds and property shared, and
reviewed equitable sharing receipts to determine if the funds were properly
accounted for and deposited.

      As shown in the following exhibit for the fiscal years we reviewed, the
Police Department received 49 receipts of equitable sharing funds totaling
$1,755,825 of which $1,737,548 was in cash and proceeds and $18,277 was
in non-cash receipts.




                                          7
 EXHIBIT 5: DORAVILLE POLICE DEPARTMENT’S RECEIPTS FOR EACH
                    FISCAL YEAR REVIEWED
  Doraville
   Police
 Department
     FY                  Cash           Proceeds           Property             Total
    2008                $1,138,072          $35,436                  $0        $1,173,508
    2009                  $409,482           $4,790             $11,541          $425,813
    2010                  $142,375           $7,393              $6,736          $156,504
    Total               $1,689,929          $47,619             $18,277        $1,755,825
Source: CATS reports

      We reconciled the Detailed Distribution report with the Police
Department’s log and found that the receipts matched. As shown in the
following exhibit, we sampled five of the highest receipts from FYs 2008,
2009, and 2010, totaling $1,376,503, to ensure the funds were properly
deposited and timely recorded.

             EXHIBIT 6: DORAVILLE POLICE DEPARTMENT’S
            SAMPLED RECEIPTS IN FYS 2008, 2009, AND 2010

                                                Date Received
                Date Received per             Per Doraville Police
   Sample          the Detailed                  Department’s                 Amount
    Count       Distribution Report           Accounting Records              Received
      1                03/11/2008                  03/11/2008                   $502,540
      2                03/11/2008                  03/11/2008                   $496,060
      3                11/10/2008                  11/10/2008                    $81,453
      4                01/12/2009                  01/12/2009                   $203,885
      5                03/09/2010                  03/09/2010                    $92,565
                                                                   Total     $1,376,503
Source: Detailed Distribution report of payments submitted to the Doraville Police
Department and Accounting Records from the Doraville Police Department.

      Our testing determined the Police Department accurately recorded its
asset forfeiture receipts.

Use of Equitable Sharing Property

      The Equitable Sharing Guide requires that any forfeited tangible
property transferred to a state or local agency for official use be used for law
enforcement purposes only. Further, vehicles and other tangible property
transferred for official law enforcement use must be used for at least
2 years. However, if the property becomes unsuitable for the stated
purpose before the end of the 2-year period, it may be sold.


                                             8
      During the audit period, the Police Department participated in the
seizure of four vehicles and received the vehicles as forfeited tangible
property items. The Police Department included three of the four vehicles as
part of a trade-in for another vehicle. 5 The Police Department did not use
the three vehicles for the required 2 years. 6 Because the maintenance costs
for the three vehicles were a financial burden, the Police Department
requested and received approval from AFMS to use the vehicles as part of a
trade-in. At the time of our audit, the Police Department identified one
vehicle as tangible property. We determined this vehicle was in use for law
enforcement purposes.

Use of Equitable Sharing Funds

      As summarized in Exhibit 7, the Guide outlines categories of allowable
uses for equitable sharing funds.

  EXHIBIT 7: SUMMARY OF ALLOWABLE AND UNALLOWABLE USES
               FOR EQUITABLE SHARING FUNDS
                Allowable Uses                            Unallowable Uses
    Activities calculated to enhance              Salaries for current law
    future investigations                         enforcement personnel
    Salaries paid for first-year law              Non-law enforcement use of
    enforcement personnel                         tangible property and expenses
    Law enforcement training,
    equipment, facilities, and                    Non-official, improper, or illegal
    operations support                            uses
                                                  Uses not specified in sharing
    Detention facilities                          request
    Drug education and awareness                  Reception and representation
    program operation                             expenses
    Asset accounting and tracing
    expenses                                      Extravagant expenses
   Source: March 1994 and April 2009 Equitable Sharing Guides

      The March 1994 Guide provided that, generally, the participating
agencies should use equitable sharing funds for law enforcement purposes.
Under certain circumstances, up to 15 percent of equitable sharing revenues
could be used to pay for drug abuse rehabilitation, drug and crime
prevention efforts, housing and job skills programs, or other non-profit
community-based programs or activities. However, the 1998 Addendum

       5
         The Police Department used the three vehicles and two additional vehicles that
were not seized vehicles for this trade. The five vehicles’ trade-in value totaled $35,000.
       6
        The Police Department received the three vehicles on November 10, 2008;
March 11, 2009; and April 7, 2009, and traded the vehicles on May 21, 2010.

                                              9
required that the participating agency directly purchase such items and
services. The April 2009 Guide required that all expenditures be made by
the law enforcement agency and did not allow for the transfer of cash to
community-based entities.

       During the audit period of July 1, 2007, through June 30, 2010, the
Police Department made 449 disbursements of DOJ equitable sharing funds
totaling $2,764,463. Of the $2,764,463 disbursed, the Police Department
spent $1,693,311 on goods and services and disbursed $1,071,152 as
transfers between two bank accounts, reimbursable disbursements to the
DEA’s drug task force, and buy money for law enforcement operations. 7
The Police Department also constructed a training facility and used $324,310
of the $1,693,311 for construction costs.

      We tested a sample (66) of the 449 disbursements totaling $789,085
to determine if the expenditures were allowable and supported by adequate
documentation. The sample included high-dollar expenditures and
purchases for items that we selected based on the potential use of those
items for impermissible or improper uses. We found seven disbursements
were unallowable for travel-related expenditures. Two of the 7 instances
resulted from the original sample of 66 disbursements and 5 resulted from
our expanded sample. 8 The results of our testing are discussed in the
following paragraphs.

      During the audit period, the Police Department used $78,654 in
equitable sharing funds to pay for officers and staff to attend law
enforcement-related training classes. Prior to April 2009 the Guide did not
address the allowability of travel expenses. The April 2009 equitable sharing
guide states that participants must follow state regulations in the payment of
travel and per diem reimbursements. The state of Georgia Statewide Travel
Regulation states that for travel outside of the state, entities may elect to
use General Services Administration (GSA) rates rather than the state of
Georgia’s rates. For in-state travel the Georgia regulations require
employees traveling overnight be paid a per diem amount designed to cover
the cost of meals (including taxes and tips), based on the number of meals
per day for which the employee is eligible. In four instances, the Police
Department paid staff 100 percent of the applicable meals and incidental
expenses rate (M&IE) for the first and last days of travel, rather than the
       7
        The transfers between bank accounts occurred because the Doraville Police
Department changed banks.
       8
         We expanded our sample to include all travel transactions that occurred after April
2009 because the Guide in effect prior to April 2009 did not address the allowability of
travel expenses. The expanded sample increased our sample to 78 disbursements totaling
$792,528.


                                            10
GSA’s prescribed 75 percent for the first and last day of travel. 9 Also, in two
instances, the Police Department paid staff for in-state travel based on the
GSA M&IE rate rather than the state rate as required in the state regulation.
We identified $254 in unallowable costs for these instances. Because the
Guide in effect prior to April 2009 did not address the allowability of travel
expenses such as these, we do not consider such expenses paid prior to
April 2009 to be unallowable. The Doraville Police Chief told us that he has
elected to use GSA rules exclusively for the past several years.

     We also determined that one individual received an unallowable
payment of $71 for an additional night for a hotel stay when the individual
checked out a day earlier.

      Unallowable expenses are summarized in the following exhibit. We did
not question these amounts because of the minimal values. However, the
Police Department should ensure adherence to the rules for payment of
travel expenses.

           EXHIBIT 8: UNALLOWABLE TRAVEL EXPENSES
     Check      Check       Expenditure
      Date     Number       Description  Amount Unallowable
    06/24/09    3116     Travel Per Diem              $13.50
    11/02/09            3186         Travel   Per   Diem                          $35.50
    01/25/10            3198         Travel   Per   Diem                          $35.50
    04/02/10            3209         Travel   Per   Diem                          $67.00
    04/02/10            3210         Travel   Per   Diem                          $67.00
    05/07/10            3215         Travel Per Diem                              $35.50
    01/23/09            3044         Hotel Stay                                   $71.00
                                                      Total                    $325.00
 Source: Doraville Police Department

Recommendation

       We recommend that the Assistant Attorney General, Criminal Division:

   1. Ensure the Doraville Police Department follow policies and procedures
      for travel-related expenditures.




       9
          Staff receive M&IE payments when on travel for official duty to cover meals,
lodging, fees, tips, transportation, and mailing costs. According to the GSA, when travel is
24 hours or more on the day of departure, the allowance for M&IE is 75 percent of the
applicable M&IE rate.

                                              11
                                                               APPENDIX I

            OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

Objectives

      The objectives of the audit were to assess whether the Doraville Police
Department accounted for equitable sharing funds properly and used such
revenues for allowable purposes defined by applicable guidelines. We tested
compliance with what we considered were the most important conditions of
the Department of Justice’s (DOJ) equitable sharing program. We reviewed
laws, regulations, and guidelines governing the accounting for and use of
DOJ equitable sharing receipts, including:

   •   A Guide to Equitable Sharing of Federally Forfeited Property for State
       and Local Law Enforcement Agencies, dated March 1994.

   •   Addendum to A Guide to Equitable Sharing of Federally Forfeited
       Property for State and Local Law Enforcement Agencies, dated March
       1998.

   •   Guide to Equitable Sharing for State and Local Law Enforcement
       Agencies, dated April 2009.

      Unless otherwise stated in our report, the criteria used during the
audit were contained in these documents.

Scope and Methodology

      Our audit concentrated on, but was not limited to, equitable sharing
receipts received by the Doraville Police Department between July 1, 2007,
and June 30, 2010. We performed audit work primarily at the Police
Department located in Doraville, Georgia. To accomplish the objectives of
the audit, we interviewed the Police Department’s staff and examined
records related to revenues, interest earned, expenditures of DOJ equitable
sharing revenues, and property received by the Police Department.


                                      12
      During our audit period, there were 45 cash receipts totaling
$1,737,548 and 4 receipts of property valued at $18,277. We tested five
receipts valued at $1,376,504. During our audit period, there were 449
disbursements totaling $2,764,463. We tested 78 disbursements valued at
$792,528.

      We relied on computer-generated data contained in the DOJ
Consolidated Asset Tracking System (CATS) for determining equitably
shared revenues and property awarded to the Police Department during the
audit period. We did not establish the reliability of the data contained in the
CATS system as a whole. However, when the data used is viewed in context
with other available evidence, we believe the opinions, conclusions, and
recommendations included in this report are valid.

      Our audit specifically evaluated the Doraville Police Department’s
compliance with three essential equitable sharing guidelines: (1) federal
sharing agreements and certification reports, (2) accounting for equitable
sharing receipts, and (3) use of equitable sharing funds. In planning and
performing our audit, we considered internal controls established and used
by the Doraville Police Department and the city of Doraville, Georgia, over
DOJ equitable sharing receipts to accomplish our audit objectives. However,
we did not assess the Doraville Police Department’s financial management
system reliability, internal controls, or whether it, as a whole, complied with
laws and regulations.

      Our audit included an evaluation of the Doraville Police Department, a
unit of the city of Doraville, Georgia, which was included in a city-wide audit
conducted by James L. Whitaker, Certified Public Accountant. The results of
this audit were reported in the Single Audit Report that accompanied the
Comprehensive Annual Financial Report for the year ended June 30, 2009.
The Single Audit Report was prepared under the provisions of the Office of
Management and Budget Circular A-133. We reviewed the independent
auditor’s assessment. This report disclosed that the city did not comply with
the provisions of the Davis-Bacon Act as it relates to the documentation of
the contractors’ qualifications and payroll with respect to the construction
project financed with federal funds. The city also did not adhere to the
requirements of Procurement and Debarment as it relates to the
documentation of the history of the procurement, basis for contractor
selection and a cost analysis of the procurement action. In addition to the
required annual Single Audit, the Police Department undergoes an annual
audit of its Federal Asset Forfeiture Fund. We evaluated the results of this
audit. We found the auditors also determined the city failed to comply with
the provisions of the Davis-Bacon Act and some of the Procurement and
Debarment activities.


                                      13
                                                   APPENDIX II

SUMMARY OF TESTED EQUITABLE SHARING PURCHASES

                         DETERMINED
                            TO BE
            ITEM         ALLOWABLE                       COST
No.    DESCRIPTION        (Yes/No)      JUSTIFICATION     ($)
      Backup/storage
      device and                      Law enforcement
 1    backup software       Yes       equipment          108,980
      Data conversion
      and crime                       Law enforcement
 2    mapping               Yes       equipment           98,399
      Transfer of
      treasury funds
      received to                     Law enforcement
 3    treasury account      N/A       activities          76,411
                                      Law enforcement
 4    Vehicle               Yes       equipment           57,900
                                      Law enforcement
 5    Vehicle               Yes       equipment           49,900
      Purchase and
      installation of
      audio and video                 Law enforcement
 6    equipment             Yes       equipment           43,898
                                      Law enforcement
 7    Video units           Yes       equipment           35,955
                                      Law enforcement
 8    Motor units           Yes       equipment           28,196
      Patrol video
      conversion and                  Law enforcement
 9    data storage          Yes       equipment           28,524
                                      Law enforcement
10    Reimbursement         Yes       activities          28,500
      Confidential
      informant                       Law enforcement
11    payment               Yes       activities          15,500
                                      Law enforcement
12    Reimbursement         Yes       activities          10,000
                                      Law enforcement
13    Reimbursement         Yes       activities           8,500
      Confidential
      informant                       Law enforcement
14    payment               Yes       activities           5,000




                              14
                         DETERMINED
                            TO BE
            ITEM         ALLOWABLE                      COST
No.    DESCRIPTION        (Yes/No)      JUSTIFICATION    ($)
      Confidential
      informant                       Law enforcement
15    payment               Yes       activities         2,500
      Confidential
      informant                       Law enforcement
16    payment               Yes       activities         2,000
      Confidential
      informant                       Law enforcement
17    payment               Yes       activities         1,820
      Confidential
      informant                       Law enforcement
18    payment               Yes       activities         1,000
      Confidential
      informant                       Law enforcement
19    payment               Yes       activities         1,000
                                      Law enforcement
20    Rent                  Yes       expense            1,385
                                      Law enforcement
21    Rent                  Yes       expense            1,385
                                      Law enforcement
22    Reimbursement         Yes       training           1,497
                                      Law enforcement
23    Per diem             Partial    training            284
                                      Law enforcement
24    Per diem              Yes       training            214
                                      Law enforcement
25    Vehicle parts         Yes       equipment            59
                                      Law enforcement
26    Per diem              Yes       training            162
                                      Law enforcement
27    Lodging               Yes       training            700
                                      Law enforcement
28    Lodging               Yes       training            355
                                      Law enforcement
29    Per diem              Yes       training            117
                                      Law enforcement
30    Registration fee      Yes       training             45
                                      Law enforcement
31    Per diem             Partial    training            207
                                      Law enforcement
32    Lodging               Yes       training            295
                                      Law enforcement
33    Registration fee      Yes       training           3,150


                               15
                          DETERMINED
                             TO BE
          ITEM            ALLOWABLE                       COST
No.   DESCRIPTION          (Yes/No)       JUSTIFICATION    ($)
                                       Law enforcement
34    Lodging                Yes       training             356
      Counter camera                   Law enforcement
35    in jail                Yes       equipment           3,522
                                       Law enforcement
36    Computer parts         Yes       equipment            180
                                       Law enforcement
37    Printers               Yes       equipment           2,504
                                       Law enforcement
38    Tasers                 Yes       equipment           6,520
      ID card/door                     Law enforcement
39    card printer           Yes       equipment           5,263
                                       Law enforcement
40    Message board          Yes       equipment          18,490
                                       Law enforcement
41    Cameras                Yes       equipment           9,800
                                       Law enforcement
42    Laptops                Yes       equipment          11,141
      Camera and                       Law enforcement
43    accessories            Yes       equipment           4,596
                                       Law enforcement
44    Vehicle                Yes       equipment           6,700
                                       Law enforcement
45    Vehicle                Yes       equipment          22,182
                                       Law enforcement
46    Cell phone             Yes       equipment            601
      Satellite phone                  Law enforcement
47    service                Yes       equipment             62
                                       Law enforcement
48    Blackberry             Yes       equipment           1,673
      Heating and air                  Law enforcement
49    setup                  Yes       facilities         16,413
      Carpentry                        Law enforcement
50    services               Yes       facilities          3,640
      Drywall and                      Law enforcement
51    acoustical work        Yes       facilities          3,737
      Upgrade of
      parabolic lens                   Law enforcement
52    fixtures               Yes       equipment          13,795
                                       Law enforcement
53    Plumbing fixtures      Yes       facilities          4,390
      Spill proof water                Law enforcement
54    dish for K-9           Yes       equipment             70


                               16
                                      DETERMINED
                                         TO BE
                    ITEM              ALLOWABLE                                           COST
    No.        DESCRIPTION             (Yes/No)               JUSTIFICATION                ($)
              Lettering for two                            Law enforcement
     55       motorcycles                    Yes           uniform                             300
              Payment to                                   Law enforcement
     56       SATCOM direct                  Yes           related payment                     154
                                                           Law enforcement
     57       Transfer of funds              Yes
                                                           activities                      19,822
              Bicycle unit                                 Law enforcement
    58        gear                           Yes           equipment                           348
                                                           Law enforcement
     59       Contribution                   Yes           activities                      10,000
                                                           Law enforcement
     60       Traffic vest                   Yes           equipment                               21
                                                           Law enforcement
     61       Power cords                    Yes           equipment                           291
              Reflective                                   Law enforcement
     62       lettered shirts                Yes           uniform                             726
              Federal asset                                Law enforcement
     63       forfeiture audit               Yes           activities                        3,500
                                                           Law enforcement
     64       Leather jacket                 Yes           uniform                             299
              Purchase and
              installation of                              Law enforcement
     65       carpet                         Yes           facilities                        3,653
                                                           Law enforcement
     66       Floor tile                     Yes           facilities                        498
                                                                        TOTAL            789,085
Source: OIG assessment based on Doraville Police Department accounting records, purchase orders,
invoices, and the April 2009 Guide




                                                17
                                                                                   APPENDIX III

    DORAVILLE POLICE DEPARTMENT’S RESPONSE TO THE
                 DRAFT AUDIT REPORT


                       City of Doraville
                      Police Department
                                3750 Park Avenue, Doraville, Georgia 30340

              Chief John King               Office (770)936-3844             Fax (770)220-1597
Ferris B. Polk                                                              21 March 2011
U.S. Department of Justice
Office of the Inspector General
Atlanta Regional Audit Office
75 Spring St. Suite 1130
Atlanta, GA 30303

Dear Mr. Polk:

         I appreciate the opportunity to respond to the draft report. I am confident the efforts to
maintain complete accountability and transparency initiated in 2002 have been validated by
numerous audits performed. As with the multitude of updates by the U.S. Department of Justice, I
am grateful to our Law Enforcement Coordinator with the U.S. Attorney’s Office in the Northern
District of Georgia Didi Nelson, who has answered questions and provided opportunities for
continuing training to my staff and me.

The following issues were identified:

1.David Bacon Act; Our department built a evidence room and training center and acted as our own
managing contractors, the requirement to screen the contractors through the Federal Debarred List
was unknown to us at the time. The construction time span went across two fiscal years and was
noted on the internal audit. The Department has implemented a policy of screening contractors
through the federal database, in addition the Department submitted all the contractors involved in the
project retroactively and all were cleared.

2. Per Diem rates. Until September 2010, our department used the GSA guidelines for travel for
training purposes. In April 2009, the federal guidelines changed to follow Georgia State guidelines
which are different and more complicated. Additionally, several employees attended training and
were erroneously paid a full days Per Diem for the first and last day of training. On 09/15/2010,
check #3198 for $497.00 was returned unused and therefore voided. This should then reduce the
“Unallowable Travel Expenses” to $289.50. Our department has implemented a procedure to
correct this error in addition to requiring all employees participating in outside training to turn in all
receipts for lodging.

                                                          John F. King
                                                          Chief of Police



                                                    18
                                                            APPENDIX IV

               OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
              NECESSARY TO CLOSE THE REPORT

       The OIG provided a draft of this audit report to the Criminal Division
and Doraville Police Department. The Criminal Division declined to provide
comments on the draft report. The Doraville Police Department’s response
is incorporated in Appendix III of this final report. We made technical edits
to the report that had no effect on the findings and recommendations. The
following provides the OIG analysis of the response and summary of actions
necessary to resolve the report.

      1. Unresolved. The Doraville Police Department concurs with this
         recommendation to follow policies and procedures for travel-related
         expenditures. However, because the Criminal Division did not
         respond to the draft report, this recommendation is unresolved.
         This recommendation can be closed when we receive the Criminal
         Division’s concurrence with the recommendation and
         documentation supporting that the Doraville Police Department
         implemented policies and procedures for travel-related
         expenditures.




                                     19
